HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Missouri," (A-07-07-03096)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Missouri," (A-07-07-03096)
February 7, 2008
Complete Text of Report is available in PDF format (396 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to
determine whether the State agency had (1) implemented the recommendations made
in our previous audit of the Missouri drug rebate program and (2) established
controls over collecting rebates on single source drugs administered by
physicians.  We found that the State agency had established controls over
collecting rebates on single source drugs administered by physicians.
However, the State agency had not covered all the weaknesses identified in our
previous audit.
We recommended that the State agency (1) develop policies
and procedures to reconcile the general ledger control account to the subsidiary
ledgers/records and to the Form CMS-64.9R; (2) develop policies and procedures
to identify the State agencys dispute resolution process, including policies
and procedures to offer a State hearing mechanism to manufacturers in order to
settle disputes; and (3) determine the actual accounts receivable balance as of
June 30, 2006, and amend the Form CMS-64.9R to include all outstanding rebate
balances.  The State agency generally agreed with our findings and
recommendations.